              Delivery Fleet Strategies

                       Audit Report




                                      August 14, 2012

Report Number CI-AR-12-006
                                                                         August 14, 2012

                                                              Delivery Fleet Strategies

                                                          Report Number CI-AR-12-006




BACKGROUND:
The U.S. Postal Service manages the           After examining delivery fleet practices
world’s largest civilian vehicle fleet of     at organizations with a wide spectrum of
about 200,000 owned vehicles to               fleet management expertise, we
primarily support mail delivery. This fleet   identified 32 best practices for
includes about 185,000 light-duty             consideration by the Postal Service. The
delivery vehicles consisting of minivans      best practices fall into three categories:
and about 163,000 right-hand-drive
vehicles, of which about 142,000 are             Strategy.
known as long-life vehicles (LLVs). The          Asset optimization.
expected service life of the LLVs is             Asset acquisition.
24 years, and they are now between
18 and 25 years old. In 2011, the Postal      The U.S. Postal Service Office of
Service delivered to about 151.5 million      Inspector General plans to conduct
delivery points, 6 days a week. Our           future work on vehicle replacement
objective was to assess delivery fleet        (type and technology considerations).
strategies that could be applicable to the
Postal Service using industry                 WHAT THE OIG RECOMMENDED:
comparative analysis.                         We recommended that management
                                              develop and implement a
WHAT THE OIG FOUND:                           comprehensive fleet management
The Postal Service does not have a            strategy that is managed from
comprehensive fleet management                headquarters by a dedicated team of
strategy but has some elements of a           specialists whose primary focus is to
strategy in place to operate, sustain,        use identified best practices for the
and renew its delivery fleet. In              management of the Postal Service’s
June 2011, management also                    vehicle fleet. We also recommended
developed a plan to purchase new              that management establish an annual
vehicles; however, the Postal Service’s       new vehicle replacement strategy, as
continuing financial situation prevents       part of a comprehensive fleet
the plan’s implementation. A robust and       management strategy, to replace part of
centralized strategy ensures that             the fleet each year, spread out the
opportunities to reduce costs, improve        expenditures over time, and ensure the
fleet effectiveness, improve safety,          overall operational functionality of the
adequately plan for future needs, and         fleet.
maximize the return on investment are
available to management.                      Link to review the entire report
August 14, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Delivery Fleet Strategies
                           (Report Number CI-AR-12-006)

This report presents the results of our audit of Delivery Fleet Strategies (Project Number
12YG004CI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael L. Thompson, director,
Planning, Innovation and Optimization or me at 703-248-2100.

Attachments

cc: Megan Brennan
    Corporate Audit and Response Management
Delivery Fleet Strategies                                                                                           CI-AR-12-006



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Recommendations .......................................................................................................... 2

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Comparative Analysis Best Practices ....................................................... 12

Appendix C: Management’s Comments ........................................................................ 18
Delivery Fleet Strategies                                                                                   CI-AR-12-006




Introduction

This report presents the results of our audit of Delivery Fleet Strategies (Project Number
12YG004CI000). Our objective was to assess delivery fleet strategies that could be
applicable to the U.S. Postal Service using industry comparative analysis. This self-
initiated audit addresses strategic risk. See Appendix A for additional information about
this audit.

The Postal Service manages the world’s largest civilian vehicle fleet of about 200,000
owned vehicles to primarily support mail delivery.1 This fleet includes about 185,000
light duty delivery vehicles consisting of minivans and about 163,000 purpose-built
right-hand-drive vehicles, of which about 142,000 are known as long-life vehicles
(LLVs). The expected service life of the LLVs is 24 years, and they are now between
18 and 25 years old.

Conclusion

The Postal Service does not have a comprehensive fleet management strategy to
operate, sustain, and renew its delivery fleet. However, it does have strategies in place
for some elements of a comprehensive fleet management strategy, such as:

   Spare parts, provided by suppliers on a consignment basis.

   Tires, purchased using a contract with a national provider to leverage volume
    purchases.

   Maintenance and repairs, typically performed in-house with maintenance and repair
    service contracts for overflow work and rural locations.

Also, in June 2011, management developed a plan2 to purchase new vehicles
supported by broad analysis; however, the Postal Service’s continuing financial situation
prevents its implementation. A robust and centralized strategy ensures that
opportunities to reduce costs, improve fleet effectiveness, improve safety, adequately
plan for future needs, and maximize the return on investment3 are available to
management.

Based on the comparative analysis, 32 best practices were identified from direct
competitors, utility organizations, other organizations with large fleets, and government
fleets. See Chart 1, Chart 2, and Appendix B for additional information.

1
  The Postal Service’s mail hauling fleet also includes truck tractors, spotters, trailers, cargo vans, and mixed delivery
and collection vehicles totaling about 15,100 vehicles and does not include contractor vehicles.
2
  Light Delivery Vehicle Preliminary Business Case, dated June 23, 2011.
3
  A performance measure used to evaluate the efficiency of an investment, calculated by dividing the benefit of the
investment by the cost of the investment.
                                                            1
Delivery Fleet Strategies                                                                               CI-AR-12-006




It is important to acknowledge that all organizations have customized fleet management
strategies to fit their business models and strategic goals. However, two important
conclusions can be drawn from the comparative analysis:

   Best in class companies have a comprehensive, forward-looking fleet management
    strategy that is managed by a headquarters team of specialists. The fleet
    management strategic plan is in writing, formally adopted, and reviewed periodically
    by experienced professionals with backgrounds in maintenance, engineering, supply
    chain logistics, procurement, and sustainability. At a minimum, these fleet
    management strategic plans address:

    o    Capital expenditures.
    o    Fuel and tire management.
    o    Spare parts management.
    o    Maintenance.
    o    Financing and budgeting.
    o    Sustainability.

   An annual new vehicle replacement strategy to spread out the expenditures evenly
    over time, ensure functional viability, and the overall health of the fleet in the
    collective lifecycle of the fleet. A percentage replacement strategy will stabilize
    acquisition and maintenance costs and allow for valuable relationships with
    suppliers. When suppliers can expect annual business, (a steady flow of revenue is
    highly valued) the customer has an advantage in terms of negotiating cost and
    timeframe requirements, and quality.

Management has the challenges of cost and the right-hand-drive requirement for
delivery vehicles to renew their delivery vehicle fleet, so the Postal Service can continue
to fulfill its mission. The cost of an entire new delivery vehicle fleet is estimated to be
more than $5 billion, and right-hand-drive4 delivery vehicles are currently not available.

The U.S. Postal Service Office of Inspector General (OIG) plans to conduct future work
on vehicle replacement (type and technology considerations).

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Implement a comprehensive fleet management strategy that is managed by
   headquarters using a dedicated team of specialists whose primary focus is to use
   identified best practices for the management of the Postal Service’s vehicle fleet.



4
 Vehicles are usually manufactured in left-hand-drive and right-hand-drive configurations, referring to the placement
of the driver seat and controls within the vehicle.


                                                          2
Delivery Fleet Strategies                                                        CI-AR-12-006



2. Establish an annual new vehicle replacement strategy, as part of a comprehensive
   fleet management strategy, to replace part of the fleet each year, spread out the
   expenditures over time, and ensure the overall operational functionality of the fleet.

Management’s Comments

Management disagreed with our first finding and recommendation stating that the Postal
Service has recently undergone an organization wide restructuring. The Postal
Service’s fleet strategy is not contained in one department but is a cooperative venture
between various departments.

Management partially agreed with our second recommendation, excluding any
references to the first recommendation about a comprehensive fleet management
strategy. Management stated they will incorporate the idea of yearly replacement of
portions of the fleet rather than a massive purchase prior to the next significant vehicle
purchase with a target implementation date of September 2016. See Appendix C for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the first finding and
recommendation in the report, but does not plan to pursue it through the formal audit
resolution process. Although management believes the current restructuring caused
fleet strategy to be a cooperative venture between departments, the OIG maintains that
establishing a comprehensive fleet management strategy, managed by a dedicated
headquarters team of specialists, would align the Postal Service’s practices with the
best in class practices of direct competitors, utility organizations, government fleets, and
other organizations with large fleets. The OIG considers management’s comments
responsive to the second recommendation in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             3
Delivery Fleet Strategies                                                                                   CI-AR-12-006



                                  Appendix A: Additional Information

Background

The Postal Service’s basic function is to provide postal services to bind the nation
together through the correspondence of the people. It is also charged with selecting
modes of transportation that give the highest consideration to the prompt and
economical delivery of all mail.5 In 2011, the Postal Service delivered to about
151.5 million delivery points, 6 days a week. On average, the number of delivery points
has steadily grown at a rate of .7 percent in the last 5 years, or 1.1 million new delivery
points per year.

The Postal Service manages the world’s largest civilian vehicle fleet of about
200,000 vehicles to primarily support mail delivery.6 This fleet includes about 185,000
light duty delivery vehicles consisting of minivans and about 163,000 purpose-built
right-hand-drive vehicles, of which about 142,000 are known as LLVs. The expected
service life of the LLVs is 24 years, and they are now between 18 and 25 years old.7

The Government Accountability Office (GAO)8 and the OIG9 in 2011 and 2010
respectively reviewed:

   The Postal Service’s approach to address its delivery fleet needs.
   Vehicle funding options for the Postal Service.
   The Postal Service’s vehicle replacement strategy.

The GAO and the OIG determined that without the capital resources to purchase a new
vehicle fleet, management’s approach is to sustain delivery fleet operations through
continued maintenance, by using a ‘fix as fails’ strategy.10 In addition, the costs to
maintain the fleet were increasing and even exceeded replacement costs as vehicle
maintenance costs intensified.

In June 2011, management developed a plan11 to purchase new vehicles supported by
broad analysis; however, the Postal Service’s continuing financial situation prevents the
plan’s implementation. This plan anticipated the replacement of LLVs with high
maintenance costs and end of life minivans and for providing right-hand-drive vehicles
to rural mail carriers over a 5-year period, from 2012 through 2016. The plan, in the long
term, anticipated replacing the remaining LLVs over 7 years, beginning in 2017.


5
  Title 39 U.S.C. § 101(a) and (f).
6
  The Postal Service’s mail hauling fleet also includes truck tractors, spotters, trailers, cargo vans, and mixed delivery
and collection vehicles totaling about 15,100 vehicles.
7
  The percentages of vehicles from ages 18 to 24 years old are evenly spread at 13 to 14 percent each year, and
5.3 percent of vehicles are 25 years old.
8
  GAO-11-386, United States Postal Service, Strategy Needed to Address Aging Delivery Fleet, May 2011.
9
  OIG, Audit Report–Delivery Vehicle Replacement Strategy (Report Number DA-AR-10-005, dated June 16, 2010).
10
   ‘Fix as fails’ refers to a strategy whereby vehicles are fixed as they experience failure as a short-term means of
ensuring that the delivery vehicles remain operational.
11
   Light Delivery Vehicle Preliminary Business Case, dated June 23, 2011.


                                                            4
Delivery Fleet Strategies                                                                                 CI-AR-12-006



The Postal Service does not have a comprehensive fleet strategy to operate, sustain,
and renew its delivery fleet, unlike other large fleet owners noted in our comparative
analysis. However, management does have strategies for elements of a comprehensive
fleet management strategy. For instance:

    Spare parts, provided by suppliers on a consignment basis.

    Tires, purchased using a contract with a national provider to leverage volume
     purchases.

    Maintenance and repairs, typically performed in-house with maintenance and repair
     service contracts for overflow work and rural locations.

Objective, Scope, and Methodology

Our objective was to assess delivery fleet strategies that could be applicable to the
Postal Service using industry comparative analysis. To accomplish our objective, we
engaged a contractor to conduct best practices using research and comparative
analysis based on its extensive expertise. Specifically, we sought to understand how
other organizations:

    Strategically manage their fleets, including key components of fleet management
     strategies.
    Employ replacement strategies for future fleet replacement and new vehicle
     acquisition.
    Optimize the life of their fleet assets.

We interviewed 16 senior-level individuals at 12 organizations from selected industries.
An OIG auditor was present during each interview, except for interviews with large
parcel delivery companies.12

The 12 organizations included direct competitors, utility organizations, organizations
with large fleets, and government fleets. Direct competitors were selected, because they
perform similar tasks as the Postal Service does and might face some of the same
challenges and constraints as the Postal Service does, such as making deliveries and
starting and stopping frequently. Utility organizations were selected, because they have
‘customer-facing’13 vehicle fleets where safety and brand are of critical importance; they
might have attributes in their fleet management strategies that portray the importance
their fleets play in their overall brands. Organizations with large fleets were selected,
because they manage very large fleets with multiple types of vehicles. Government
organizations were selected, because they face similar budget and legal constraints as
the Postal Service does and often use customized vehicles.

12
   Large parcel delivery companies requested to have their names redacted from any resulting report and were not
comfortable answering trade questions in the presence of Postal Service employees.
13
   ‘Customer-facing’ refers to any technology, product, or service that the customer of a business deals with directly.


                                                           5
Delivery Fleet Strategies                                                        CI-AR-12-006




While no single organization is considered ‘world class’ in all aspects of fleet
management strategy, each of the 12 organizations provided elements of excellence.
See Chart 1 and Chart 2 for a list of organizations studied and their fleet characteristics.
Also, see Appendix B for best practices identified.




                                             6
Delivery Fleet Strategies                                                                        CI-AR-12-006



                                  Chart 1: Organizations Studied14

                                               Fleet Size
            Company                                                      Rationale for Selection
                                                (About)
                                                                      Direct competitor.
Parcel Delivery Company                      80,000-100,000           Uses vehicles to make deliveries.
                                                                      Direct competitor.
Parcel Delivery Company                      80,000-100,000           Uses vehicles to make deliveries.
                                                                      Direct competitor.
Parcel Delivery Company                          500-1,000            Uses vehicles to make deliveries.
                                                                      Food & beverage business.
                                                                      Maintains a large fleet of different
PepsiCo                                              70,000            vehicle types including tractor trailer
                                                                       trucks, delivery trucks, step vans,
                                                                       pickup trucks, and sedans.
                                                                      Utility organization.
                                                                      In 2008 made a 10-year
AT&T                                                 70,000            commitment to spend $565 million
                                                                       to deploy 15,000 alternative fuel
                                                                                  15
                                                                       vehicles.

Verizon                                              39,000           Utility organization.
                                                                      Postal organization.
Swiss Post                                           20,000           Has a strong focus on sustainability
                                                                       and total cost of ownership.
                                                                      Postal organization.
                                                                      Manages a fleet of different vehicle
Australia Post                                       10,500            types including motorcycles, step
                                                                       vans, and class eight trucks.
                                                                      Postal organization.
Canada Post                                          8,000            Only other organization with right –
                                                                       hand -drive LLVs.
                                                                      Local government.
NYPD                                                                  Decreased fuel consumption by
                                                     8,000             611,000 gallons in 2009 through
                                                                                                   16
                                                                       use of hybrid applications.
                                                                      Government organization.
City of Portland,                                                     Ranked #1 Fleet in North America
                                                     2,900
OR                                                                     by Government Fleet magazine for
                                                                             17
                                                                       2011.
City of Durham,                                                       Government organization.
                                                     1,500            Named one of the ‘100 Best Fleets’
NC                                                                     by Government Fleet magazine.
                                                                                                        18

Source: OIG - Best Practices Comparative Analysis.




14
   Grouped by similar organizations and size of fleet.
15
   http://www.att.com/gen/press-room?pid=22297&cdvn=news&newsarticleid=33757
16
   http://www.nyc.gov/html/nypd/html/administration/support_services_dir.shtml
17
   http://www.portlandonline.com/omf/index.cfm?c=33493
18
   http://www.government-fleet.com/News/Story/2011/05/2011-Government-Fleet-100-Best-Fleets-
Announced.aspx?prestitial=1


                                                        7
Delivery Fleet Strategies                                                                              CI-AR-12-006



                          Chart 2: High-Level Fleet Characteristics Snapshot

         Primary                 Average Age of                 Degree of
                                                                                    Replacement Cycles
       Vehicle Type                   Fleet                   Customization
         Package Cars              About 9.5 years                   Limited                  Annual

        Delivery Trucks             About 9 years                    Limited                  Annual

        Delivery Trucks
                                       8.5 years                     Limited                  Annual
          and Vans
        Vans and Small                                         Reliance on Up-
                                      13.5 years                            19                Annual
           Trucks                                                   fitters
        Step-vans and                                        About 25% are right-    Annual: Growing fleet to
                                       8.5 years
            LLVs                                                 hand-drive             12,500 by 2015

         Delivery Vans                  7 years                      Limited                  Annual

        Pickup/Delivery
                                        5 years                      Limited                  Annual
            Trucks
      Delivery Vans and                                        Limited to Tractor
                                       4-5 years                                    Quarterly (4 times per year)
        Motorcycles                                                 Trailers
      Sedans, Vans, and
                                       3-4 years                     Limited                  Annual
           SUVs
                                                               Moderate - Fire
       Sedans and Solid
                                          N/A                 Engines and Street              Annual
         waste trucks
                                                                   cleaners
                                                               Moderate - Fire
       Sedans and Solid
                                          N/A                 Engines and street              Annual
         waste trucks
                                                                   cleaners
       Light Trucks and
                                       8.7 years                     Limited                  Annual
             Vans
Note: N/A means not applicable.
Source: OIG - Best Practices Comparative Analysis.

We conducted this performance audit from October 2011 through August 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 14, 2012, and included their
comments where appropriate.




19
     Up-fitters are third-parties that specialize in customizing vehicles.


                                                                8
    Delivery Fleet Strategies                                               CI-AR-12-006



    Prior Audit Coverage

                                  Final
                      Report     Report         Monetary
Report Title          Number      Date           Impact             Report Results
United States     GAO-11-386    5/17/2011        None      Many of the Postal Service’s
Postal                                                     delivery vehicles are reaching the
Service,                                                   end of their expected 24-year
Strategy                                                   operational lives. The Postal
Needed to                                                  Service's delivery fleet is largely
Address                                                    composed of custom-built, right-
Aging                                                      hand- drive vehicles designed to
Delivery                                                   last for 24 years, including about
Fleet                                                      141,000 gasoline-powered
                                                           vehicles 16 to 23 years old. The
                                                           Postal Service's approach for
                                                           addressing its delivery fleet
                                                           needs is to maintain its current
                                                           fleet until it determines how to
                                                           address its longer-term needs.

                                                           GAO recommended that the
                                                           Postal Service should develop a
                                                           strategy for addressing its
                                                           delivery fleet needs that
                                                           considers the effects of likely
                                                           operational changes, legislative
                                                           fleet requirements, and other
                                                           factors. The Postal Service
                                                           agreed with GAO’s
                                                           recommendation.




                                            9
    Delivery Fleet Strategies                                                  CI-AR-12-006




                                   Final
                      Report      Report          Monetary
Report Title          Number       Date            Impact             Report Results
Delivery          DA-AR-10-005   6/16/2010   $342,127,370    The Postal Service has
Vehicle                                                      successfully maintained its LLVs
Replacement                                                  delivery fleet in safe, working
Strategy                                                     condition for more than 20 years.
                                                             They attribute this success to a
                                                             robust preventive maintenance
                                                             program, as well as a ‘fix as fails’
                                                             strategy that we found to be
                                                             operationally viable and generally
                                                             cost effective. However, analysis
                                                             of delivery vehicle costs shows
                                                             that this strategy would not be
                                                             cost-effective for fleet vehicles
                                                             the Postal Service will have to
                                                             replace soon.

                                                             We recommended replacing
                                                             maintenance intensive vehicles,
                                                             re-emphasizing to vehicle
                                                             maintenance and district
                                                             managers the reinvestment
                                                             threshold, and monitoring
                                                             maintenance intensive delivery
                                                             vehicles at the area level.
                                                             Management agreed with our
                                                             recommendations and will
                                                             develop a (replacement) plan.




                                             10
    Delivery Fleet Strategies                                                  CI-AR-12-006




                                   Final
                      Report      Report          Monetary
Report Title          Number       Date            Impact             Report Results
Vehicle Parts     DR-AR-10-008   9/24/2010    $48,024,849    The Postal Service spends more
Program                                                      than $270 million on vehicle parts
                                                             for repairing and maintaining its
                                                             fleet of more than 211,000
                                                             vehicles. The Postal Service’s
                                                             vehicle parts purchasing process
                                                             established in 1997 uses
                                                             consignment suppliers. Although
                                                             this process has provided the
                                                             Postal Service with a reliable,
                                                             more consistent means of
                                                             acquiring and managing vehicle
                                                             parts assets, the audit identified
                                                             the Postal Service did not always
                                                             pay the lowest price for vehicle
                                                             parts and vehicle part assets
                                                             were at risk in some locations.
                                                             These conditions occurred,
                                                             because of inadequate
                                                             processes, unclear purchasing
                                                             policies, and resource
                                                             constraints, as well as insufficient
                                                             internal controls to secure vehicle
                                                             parts assets in some locations.

                                                             We recommended the Postal
                                                             Service establish a process to
                                                             analyze similar vehicle parts by
                                                             form, fit, and function from the
                                                             consignment suppliers to aid in
                                                             negotiations with suppliers, and
                                                             communicate consistent clear
                                                             policy to vehicle maintenance
                                                             facility personnel on purchasing
                                                             vehicle parts from consignment
                                                             suppliers and alternate sources to
                                                             ensure the Postal Service pays
                                                             the lowest price for vehicle parts.
                                                             Management agreed with the
                                                             findings and recommendations in
                                                             the report.



                                             11
Delivery Fleet Strategies                                                                        CI-AR-12-006



                     Appendix B: Comparative Analysis Best Practices

Best Practices
The 32 fleet management best practices developed from the comparative analysis are
identified as follows. The best practices are grouped according to:

    Strategy.
    Asset acquisition.
    Asset optimization.

Strategy:

    Fuel Management.

     o Establish policies to maximize vehicle efficiency and minimize fuel consumption.
       Fuel consumption is highly impacted by two controllable factors: vehicle
       operators’ driving habits and tire air pressure. Driving habits are believed to affect
       fuel costs by as much as 30 percent and tire inflation by up to 10 percent.

     o Set goals for reducing fuel consumption and vehicle emissions, and annually
       take specific actions to achieve these goals. Take annual steps to reach these
       goals, primarily by adopting alternative fuel vehicles, requiring vehicle
       manufacturers to improve fuel efficiency performance as part of new
       procurements, and measuring carbon emissions.

     The Postal Service has primarily focused on eliminating excess transportation
     capacity and the exploration of alternative fuel vehicles as its fuel management
     strategy.20

    Tire Management.

     o Negotiate the base price of tires centrally through a national buying program, but
       enable regional fleet managers to maintain tires at the local level. Because
       vehicle geographic operating environments significantly influence costs, it is most
       cost effective for local fleet managers to negotiate service contracts with
       individual tire dealerships.

     o Establish policies and practices to maximize the useful life of tires. Periodically
       retread21 tires to extend their serviceable lives. Also, analyze scrapped tires to
       measure tire efficiency and inform future tire management strategies.

     The Postal Service’s tire purchasing strategy is to use national providers and
     leverage volume purchases.
20
   OIG, Fuel Management Consumption Strategies for Surface Network Operations (Report Number NL-AR-09-010,
dated September 30, 2009).
21
   Retreading is a process where a previously used tire is reconditioned and then placed back on the vehicle.


                                                      12
Delivery Fleet Strategies                                                     CI-AR-12-006




   Organizational Structure.

    o Establish a corporate fleet management strategy staff. Twelve of 12
      organizations studied have a team dedicated to fleet management strategy at the
      corporate level.

    o Separate day-to-day operations from corporate fleet management strategy
      formulation. By separating these functions, day-to-day operations are executed
      more effectively and strategic fleet managers receive the time and resources
      necessary to make long-term strategic decisions in the best interest of the entire
      vehicle fleet and the organization.

    o Align fleet management strategy with the overall business strategy through
      strong collaboration. Examples of practices include assigning fleet management
      staff to liaise with business units and establishing recurring meetings between
      corporate strategy teams and fleet strategy managers to align on goals and
      objectives.

    o Promote transparency and effective communication between the corporate fleet
      strategy group and other levels of fleet management. Practices include
      consolidating data management systems to collect aggregated fleet data across
      all regions and conducting regularly recurring meetings between corporate and
      regional fleet managers to discuss fleet data, strategy, and operations.

    Vehicle management is the responsibility of the vice president of Delivery and Post
    Office Operations. However, vehicle management is a fragmented structure,
    because area vice presidents supervise field offices.

   Sustainability.

    o Deploy green technology strategically. For example, use electric vehicles in
      urban areas, because electric vehicles are considered best suited for shorter
      routes because of battery limitations.

    o Develop a culture of continuous learning by looking outside the organization and
      evaluating the sustainability strategies of industry peers. Because of the high
      cost of green technology, studying other organizations to learn from their
      successes and failures and observing what works best is a cost and resource-
      effective way to learn more about green technology practices.

    o Collaborate with suppliers to develop green technologies that are best suited for
      business operations. Work closely with manufacturers to develop green
      technologies that are tailored to the organizations’ exact business needs.




                                            13
Delivery Fleet Strategies                                                                                CI-AR-12-006



     The Postal Service expects to meet national sustainability requirements for reduced
     emissions22 by investing in new, highly fuel-efficient gasoline-powered vehicles,
     instead of alternative fuel vehicles.23

Asset Acquisition:

    New Vehicle Acquisition.

     o Purchase a percentage of new vehicles annually. Twelve of 12 organizations
       studied purchase new vehicles annually to maintain and support supplier
       relations, stabilize maintenance costs, ensure the health of the overall fleet at all
       times, and avoid the future financial burden of replacing a large number of
       vehicles at once.

     o Balance the rate of vehicle retirement with the rate of new vehicle acquisition.
       This effort is to avoid major increases in the costs of vehicle maintenance and
       vehicle acquisition.

     o Build supplier relationships. Developing relationships can result in benefits of
       flexibility, increased quality, reliability, support, and cooperation, and occasional
       pricing discounts.

     o Use a multisourcing strategy to maximize leverage and reduce risk with
       suppliers.

     o Hold suppliers accountable for the quality and efficiency of production through
       designed controls. Seek special assurances from manufacturers regarding the
       quality and delivery of a new vehicle fleet that goes beyond the typical
       protections offered under new vehicle warranties.

     o Evaluate suppliers annually and meet individually with suppliers to share this
       assessment. Evaluate suppliers across a variety of price and cost-related metrics
       including vehicle acquisition costs, fuel economy, vehicle warranty, and service
       quality.

     o Consider the manufacturing capacity and geographical location of suppliers when
       allocating capital for new vehicle acquisition. Suppliers with shorter lead times
       and with close by manufacturing plants can save money and help avoid delays.

     o Standardize vehicles as much as possible to optimize acquisition and operations
       costs.



22
   The Energy Policy Act of 1992 provides that 75 percent of the Postal Service’s vehicle acquisitions be alternative
fuel vehicles, capable of operating on a fuel other than gasoline.
23
   GAO-11-386, United States Postal Service, Strategy Needed to Address Aging Delivery Fleet, May 2011.


                                                          14
Delivery Fleet Strategies                                                           CI-AR-12-006



       Management developed a plan24 to purchase new vehicles supported by broad
       analysis; however, the Postal Service’s continuing financial situation prevents its
       implementation. This plan anticipated the replacement of LLVs with high
       maintenance costs and end of life minivans, and for providing right-hand-drive
       vehicles to rural mail carriers over a 5-year period, from 2012 through 2016. The
       plan, in the long term, anticipated replacing the remaining LLVs over 7 years,
       beginning in 2017.

      Vehicle Retirement.

       o Use a cost-benefit analysis that considers new technology and vehicle
         inefficiency when deciding which vehicles to retire. Compare current vehicles to
         new vehicles available in the market. In some cases, organizations retire vehicles
         well before their expected lifecycle, because vehicle technology has improved
         significantly and older vehicles have become obsolete.

       o Make vehicle retirement decisions at the local level, and ensure that local
         mechanics and technicians inspect vehicles before making a final vehicle
         retirement decision. Although corporate fleet strategy managers set and
         communicate guidelines for vehicle retirement, local employees work closely with
         each vehicle over the course of its lifecycle, allowing them to understand the
         vehicle and its associated costs better than anyone else does.

       o Vehicle age is a factor in vehicle retirement but should not be the single factor in
         vehicle retirement decisions. Age is best used as an indicator for when a vehicle
         should be closely evaluated and considered for retirement.

       Without the capital resources to purchase a new vehicle fleet, the Postal Service
       must retain the current fleet and has employed a ‘fix as fails’ strategy as a short-term
       means of ensuring that its delivery vehicles remain operational.

Asset Optimization:

      Preventative Maintenance.

       o Perform preventative maintenance in-house for older vehicles to maintain control
         and optimize costs (in cases where organizations already conduct in-house
         maintenance). Some organizations choose to outsource the maintenance of
         newer vehicles, because they require less complicated maintenance and
         servicing, and they save their experienced technicians for more complicated and
         expensive work.




24
     Light Delivery Vehicle Preliminary Business Case, dated June 23, 2011.


                                                          15
Delivery Fleet Strategies                                                                         CI-AR-12-006



     o Implement controls to achieve compliance with strategy and fleet management
       policies. For example, use the fuel delivery system to facilitate compliance with
       preventative maintenance schedules by preventing refueling.

     o Ensure high quality technicians are used to conduct in-house maintenance.
       Vehicles are becoming even more technologically sophisticated and the
       technician skill set requirements are increasingly specialized. Consequently,
       organizations are placing a greater importance on attracting and retaining high-
       quality maintenance professionals.

     o Consider the number of vehicles within any geographic area when evaluating the
       decision to outsource maintenance (versus performing it in-house). It can be
       more cost effective to perform maintenance in-house when there are a large
       number of vehicles within a geographic area.

     o Prioritize maintenance and repair based on the operational necessity of the
       vehicle.

     The Postal Service has a maintenance program25 that uses Postal Service’s vehicle
     maintenance facilities (VMFs) and local commercial repair resources. The VMF
     staffs are trained maintenance technicians that are Postal Service employees. The
     Postal Service provides the tools and parts for performing repairs and monitoring
     and maintaining preventive maintenance standards.

     The geographic locations of VMFs vary according to the need to support vehicle
     maintenance and reduce transportation costs. VMF managers have overall
     responsibility for oversight of all maintenance and repair services performed at VMF
     units and any work contracted to commercial suppliers.

    Spare Parts Management.

     o Stock locally the most commonly used parts.

     o Use an automated inventory system to streamline maintenance and repair
       operations. Electronic ordering and expensing systems save costs and optimize
       spare parts management by eliminating paper, expediting the spare parts
       ordering process, and enabling fleet managers to more easily track and control
       spare parts usage.

     o Install a system of checks and balances to ensure quality parts are being
       purchased. Collaboration between Procurement and Engineering can ensure that
       organizations receive the highest quality parts at the best prices.



25
  OIG, Audit Report–Vehicle Maintenance Facilities – Scheduled Maintenance Service in the Western Area (Report
Number DR-AR-08-008, dated September 29, 2008).


                                                      16
Delivery Fleet Strategies                                                                      CI-AR-12-006



     The Postal Service spends more than $270 million annually for parts to repair and
     maintain its vehicles. Management established in 1997 a vehicle spare parts
     consignment process with parts suppliers. This process has provided the Postal
     Service with a reliable, more consistent means of acquiring and managing vehicle
     parts.26

    Operations.

     o Rotate vehicles between urban and rural delivery routes to extend vehicle
       lifecycles. These environments affect the rate at which vehicles age in different
       ways. For example, a vehicle that is used exclusively in an urban setting will
       travel fewer miles; however, it may have more wear due to the frequency of stops
       and the harsher driving conditions. Whereas, a vehicle used in a rural setting will
       likely travel more miles but be in better condition due to a more favorable driving
       environment.

     o Assign drivers to the same vehicle whenever possible to increase vehicle
       conservation. Organizations have found that drivers are more inclined to take
       better care of a vehicle if they operate the same one every day.

     The Postal Service provides instructions27 to review all routes of travel to ensure
     best possible routing as part of its annual vehicle utilization survey, and to ensure
     the established route of travel is followed. It also provides for vehicle assignments
     based on the following criteria:28

        Service required for functional vehicles.
        Potential reduction of driver hours.
        Potential increase in vehicle utilization.
        Cost of vehicle operations.

     To minimize overall repair costs and avoid disruption of services, Postal Service
     policy28 calls for the assignment of vehicles that are nearing replacement due to age,
     mileage, or high maintenance costs to locations closer to the VMF or a designated
     maintenance provider, and when practicable, deployment of vehicles to less-
     demanding assignments.




26
   OIG, Audit Report–Vehicle Parts Program (Report Number DR-AR-10-008, dated September 24, 2010).
27
   Postal Service, Handbook PO-701, 213 Routes of Travel.
28
   Postal Service, Handbook PO-701, 221 Vehicle Assignment.


                                                     17
Delivery Fleet Strategies                                       CI-AR-12-006



                            Appendix C: Management’s Comments




                                           18
Delivery Fleet Strategies        CI-AR-12-006




                            19
Delivery Fleet Strategies        CI-AR-12-006




                            20
